IN THE SUPREME COURT OF THE UNITED STATES
No. 19-1279
JaTp LaTunNnn, TRnASURER

OF THE STATE OP KANSAS,

Petitioner,
V.

UNtrpo Srarps oF AMERICAAND ANpnne LnA, IN HER oFFICIAL cApACITy
as AurrtoR oF THE Stltp oF ARxaNsas,
Respondents.

CERTIFICATE OF SERVICE
Pursuant to Rule 29.5 of the Rules of this Court, I certify that all parties
required to be served have been served. On August 5, 2020,I caused copies of the
Reply Brief for Petitioner to be served by first-class mail, postage prepaid; through

the Court's electronic filing system on those registered with the system; and by
electronic mail (as designated) on the following:
Noel J. Francisco
(supremectbriefs@usdoj . gov)
Solicitor General
Office of the Solicitor General
United States Department
of Justice
950 Pennsylvania Avenue, N.W
Room 5614
Washington, D.C. 20530-0001
(202) 5r4-22t7
Counsel for Respondent
United States of America

David H. Thompson
(dthomp sc n@cooperkirk.com)
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-e600
Counsel for Respondent Andrea Lea,
in her official capacity as Auditor of
the State of Arhansas

hV

Cp*d€e."'(&*

David C. Frederick
Counsel of Record, for Petitioner

